<html>
<title> - THE GREAT LAKES REGION: CURRENT CONDITIONS AND U.S. POLICY</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





                        THE GREAT LAKES REGION:
                   CURRENT CONDITIONS AND U.S. POLICY

=======================================================================


                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON AFRICA AND GLOBAL HEALTH

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 25, 2010

                               __________

                           Serial No. 111-106

                               __________

        Printed for the use of the Committee on Foreign Affairs



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
  56-682PDF               WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001












                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ELIOT L. ENGEL, New York             DONALD A. MANZULLO, Illinois
BILL DELAHUNT, Massachusetts         EDWARD R. ROYCE, California
GREGORY W. MEEKS, New York           RON PAUL, Texas
DIANE E. WATSON, California          JEFF FLAKE, Arizona
RUSS CARNAHAN, Missouri              MIKE PENCE, Indiana
ALBIO SIRES, New Jersey              JOE WILSON, South Carolina
GERALD E. CONNOLLY, Virginia         JOHN BOOZMAN, Arkansas
MICHAEL E. McMAHON, New York         J. GRESHAM BARRETT, South Carolina
THEODORE E. DEUTCH,                  CONNIE MACK, Florida
    Florida<greek-l>As of 5/6/       JEFF FORTENBERRY, Nebraska
    10 deg.                          MICHAEL T. McCAUL, Texas
JOHN S. TANNER, Tennessee            TED POE, Texas
GENE GREEN, Texas                    BOB INGLIS, South Carolina
LYNN WOOLSEY, California             GUS BILIRAKIS, Florida
SHEILA JACKSON LEE, Texas
BARBARA LEE, California
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

                Subcommittee on Africa and Global Health

                 DONALD M. PAYNE, New Jersey, Chairman
DIANE E. WATSON, California          CHRISTOPHER H. SMITH, New Jersey
BARBARA LEE, California              JEFF FLAKE, Arizona
BRAD MILLER, North Carolina          JOHN BOOZMAN, Arkansas
GREGORY W. MEEKS, New York           JEFF FORTENBERRY, Nebraska
SHEILA JACKSON LEE, Texas
LYNN WOOLSEY, California













                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Johnnie Carson, Assistant Secretary, Bureau of 
  African Affairs, United States Department of State.............     8
Mr. Franklin Moore, Deputy Assistant Administrator, Bureau for 
  Africa, Office of the Assistant Administrator, United States 
  Agency for International Development...........................    27

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Johnnie Carson: Prepared statement.................    11
Mr. Franklin Moore: Prepared statement...........................    29

                                APPENDIX

Hearing notice...................................................    60
Hearing minutes..................................................    61
The Honorable Donald M. Payne: Material submitted for the record.    62

 
       THE GREAT LAKES REGION: CURRENT CONDITIONS AND U.S. POLICY

                              ----------                              


                         TUESDAY, MAY 25, 2010

                  House of Representatives,
          Subcommittee on Africa and Global Health,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:08 a.m. in 
room 2172, Rayburn House Office Building, Hon. Donald M. Payne, 
(chairman of the subcommittee) presiding.
    Mr. Payne. The hearing will come to order. Good morning. 
Thank you for joining the Subcommittee on Africa and Global 
Health for this important hearing entitled ``Great Lakes 
Region: Current Conditions and U.S. Policy.'' The Great Lakes 
region of central Africa is perhaps the richest, most verdant 
area of the continent. It is the home to vast forests and 
wilderness areas, lush agricultural land, extensive mineral 
deposits, a wealth of diversity, and of course thousands of 
lakes.
    The richness is undoubtedly what attracted King Leopold of 
Belgium to Congo. In his attempt to transform Belgium into an 
empire in the late 1880s, he remotely created a living 
nightmare in Congo based on the grotesquely violent opposition 
of native Congolese for the purpose of exporting Congo's rich 
natural resources to Europe. For decades, the region's wealth 
washed ashore in ships at ports in Antwerp, and Congo's loss 
became Leopold and Belgium's gain.
    As destructive as their rape of the Congo was on the 
country's natural resources, the impact on its people is 
immeasurable and still plays out today. Yet, its impact is 
still misunderstood and underestimated. As chairman of the 
subcommittee and a former teacher, I believe we much understand 
the history of any region or people. If we are not fully able 
to understand, we are not able to bring it up to its present 
situation. Many of the problems we see today can be traced back 
to history. The roots of the instability and destruction of the 
Great Lakes region are found in Leopold's legacy.
    Now that we have that foundation, let me bring us up to 
date to more recent history. The Great Lakes region has been in 
crisis since the early 1990s. Although, conditions have 
improved in the past year. Shortly after Rwandan genocide in 
1994, millions of civilians and ex-combatants fled to the 
Democratic Republic of Congo. The former Rwandan Armed Forces 
launched an insurgency in late 1994 targeting the survivors of 
the Rwanda Genocide.
    In May 1997, the Alliance of Democratic Forces for the 
Liberation of Congo Zaire (AFDL) with the support of Rwanda and 
Uganda marched into Kinshasa and ousted long-time dictator 
Mobutu Sese Seko. Within 1 year however, tensions between 
President Laurent Kabila and his Rwandan and Ugandan allies 
begin to mount. In August 1998, open conflict erupted between 
Kabila and the Congolese forces supported by Rwanda. Angolans, 
Namibians and Zimbabwe joined the fighting in support of Kabila 
plunging the region once again into a major crisis.
    In July 1999 at a summit in Lusaka, Zambia, the leaders of 
Uganda, Rwanda, Congo, Zimbabwe, Namibia and Angola signed a 
peace agreement. The signing of the peace agreement however did 
not bring peace and stability in the Great Lakes region. Armed 
groups from Rwanda, Burundi, Uganda and the DRC continued to 
target civilians and government forces in DRC and Rwanda. In 
2008, Rwanda and DRC launched a joint military operation 
against these forces.
    The military operation severely weakened these armed 
groups. Nevertheless, the DRC continues to face insurgency and 
major humanitarian crisis, especially in eastern Congo fueled 
by a resource grab. The humanitarian crisis in eastern Congo 
has captured the attention of thousands of Americans across the 
country. Rape and sexual violence are used as a weapon of war 
in numbers that are simply unimaginable. In addition, the large 
resistance army led by Joseph Kony continues to wreak havoc 
through the region and into Sudan.
    Beyond the security concerns, there are also issues of 
democracy and governance. Burundi and Rwanda face Presidential 
elections this summer. President Kabila has called for the 
withdrawal of the United Nations Mission MONUC by 2011. 
Meanwhile, the DRC needs strong engagement from the 
international community to build institutions, and Uganda has 
been at the center of a controversy over a draconian anti-
homosexuality bill. The United States continues to play a key 
role in an effort to bring out peace, stability and development 
in the Great Lakes region.
    The purpose of today's hearing is to receive an update on a 
variety of issues facing the region and how U.S. policy efforts 
are addressing the major challenges that remain. To provide an 
insight, we are joined here on this panel by two distinguished 
officials, Ambassador Johnnie Carson and Mr. Franklin Moore, 
whose bios will be read following the ranking member's opening 
statement. We thank you both, Mr. Carson and Mr. Franklin, for 
participating in today's hearing.
    We also planned a private panel, but due to traveling 
schedules of several of the witnesses, we have postponed that 
portion of the hearing to a later date. Before I recognize the 
ranking member, let me recognize members of the diplomatic 
corps. I know that in our front row we are joined by Ambassador 
Mitifu of the DRC. We are happy to have you with us and other 
diplomatic representatives, and maybe those representatives 
from the Great Lakes regions who are in the audience, if you 
would all stand, I would appreciate it.
    Great. Thank you. We have others in addition to the Great 
Lakes region who are also present with us. At this time, we 
will turn over to our ranking member, to Mr. Smith of New 
Jersey for his opening remarks.
    Mr. Smith.. Thanks, Mr. Chairman, and thank you for calling 
this very important hearing and providing this opportunity for 
the subcommittee to hear from Assistant Secretary Johnnie 
Carson and Deputy Assistant Administrator Franklin Moore about 
the critical issues related to the African Great Lakes region.
    We are fortunate to be able to hear directly from Assistant 
Secretary Carson about his just completed trip to Uganda. It 
will be useful to hear his assessment of the situation there 
leading up to the 2011 Presidential and Parliamentary elections 
and what reaction he received to Congress' passage of the LRA 
Disarmament and Northern Uganda Recovery Act, which the 
President signed into law just last evening. It is my sincere 
hope that this legislation will achieve its goal of supporting 
civilian protection and development in northern Uganda.
    It also will be particularly timely to hear whether he 
received any indication as to how Uganda intends to vote on the 
Iran sanctions resolution being circulated in the U.N. Security 
Council. The international community is rightly concerned about 
whether Iran's dangerous nuclear ambitions can be reined in 
through a coordinated and effective global response. Uganda's 
vote as a non-permanent member of the council on this 
resolution is a key element to the answer to that question.
    I will also be interested in our witnesses' assessment of 
the elections that are currently underway in Burundi. The 
outcome of these elections and whether they are conducted 
fairly and peacefully is considered by many as a precursor to 
what can be expected for the August 9th Presidential election 
in Rwanda. The stability of both countries as well as that of 
the Democratic Republic of the Congo is inter-related, not only 
because of the geographical proximity of the three countries, 
but also because of their related ethnic demographics and 
historic refugee flows. Democracy and peace for the entire 
region or oppression and violence are potentially at stake with 
the political outcome in each country.
    I appreciate that our distinguished witnesses will be 
addressing sexual- and gender-based violence and human 
trafficking in the region and in particular in the DRC. 
Assistant Secretary Carson will recall that when he was with us 
for a previous hearing just 2 months ago, I referenced a visit 
that I had made to the DRC and my inquiry about MONUC 2 years 
ago.
    Not only were serious allegations being made against 
peacekeeping soldiers, but the U.N. Office of Internal 
Oversight Services, the OIOS, that is responsible for 
investigating those allegations was moving its personnel to 
Nairobi, Kenya, far from where it could effectively fulfill its 
mandate. Recently, I was informed that one OIOS investigator 
still is permanently based on Goma. Given the seriousness and 
the scope of this problem in the DRC, I will be interested to 
hear about what, if any, efforts have been successfully made by 
our Government to re-establish a sufficient number of permanent 
OIOS investigators in the country, and in particular Goma.
    A deeply troubling issue that is receiving increased 
attention both in the media and here in Congress concerns the 
President's Emergency Plan for AIDS Relief. U.S.-implementing 
partners for HIV/AIDS programs in Uganda have received a letter 
from the Centers for Disease Control and Prevention stating 
that in FY 2010 and FY 2011, each partner should expect to have 
a flatlined budget for antiretroviral procurement and that 
patients in need of antiretroviral therapy should be enrolled 
only if new patients can be supported without a future increase 
in funding.
    This policy, apparently implemented without advance warning 
to the implementing partners, is resulting in serious and 
perhaps unforeseen consequences. One disturbing scenario is 
that of family members on ARVs sharing with other family 
members later infected with HIV who cannot obtain treatment and 
both developing a drug-resistant strain as a result. Another 
scenario is that of a mother of several children returning her 
medication because one or more children are being denied 
treatment, and she cannot save her own life while watching them 
die.
    I have been further informed that this flatlined PEPFAR 
funding for treatment is expanding to other countries, and 
eventually will apply to our care and prevention programs as 
well. It is clear that the United States isn't likely to fund 
universal treatment and other HIV programming for exponentially 
growing numbers of patients in Africa. However, it is extremely 
important that any major changes, such as denial of treatment 
to those currently in PEPFAR care programs whose CD-4 count 
falls below the level where ART becomes necessary, be pursued 
through a well-considered strategy.
    I will be interested to hear from the Deputy Assistant 
Administrator about whether and how such a strategy is being 
implemented and any information he may have on how our partners 
are reacting to this growing crisis. I thank you, Mr. Chairman, 
again, and I yield back the balance of my time.
    Mr. Payne. Thank you very much. Ms. Woolsey, do you have an 
opening statement?
    Ms. Woolsey. No, Mr. Chairman.
    Mr. Payne. Thank you. Mr. Royce?
    Mr. Royce. Thank you, Mr. Chairman. I would just like to 
mention that Ambassador Carson and I had a chance to 
participate in a bill-signing ceremony yesterday at the White 
House regarding legislation on the Lord's Resistance Army. The 
President signed into law this particular act, the Lord's 
Resistance Army Disarmament and Northern Uganda Recovery Act, 
and that bill will task the administration with devising a 
strategy to put an end once and for all to Joseph Kony and the 
Lord's Resistance Army and their use of terror, recruitment of 
and indoctrination of child soldiers and the rape and mayhem 
they have spread across the continent of Africa.
    Of course, Ambassador Carson will be key in cobbling this 
strategy together, and I am appreciative of the strategy 
meeting afterwards at the Old Executive Office Building where 
in the meeting with the NSC that Ambassador Carson helped 
arrange. I know that members of this committee look forward to 
working with Ambassador Carson on this strategy. I think 
implementation is key, and it is going to take congressional 
engagement. This is a tragedy that has affected families 
throughout Uganda, the Congo, the Central African Republic and 
southern Sudan.
    People in the United States may not know the name Joseph 
Kony, but I guarantee you parents across Africa quiver when 
they hear that name. So I am appreciative of that legislation 
being signed. Congressman Payne, some years ago I had a 
resolution calling for Mobutu to stand down, calling for his 
replacement in Congo because of the legacy of corruption, 
malfeasance and mismanagement, and we did pass that 
legislation.
    Shortly thereafter, Codel Islet was in Angola. We found 
that frankly Mobutu had fled that morning, so we took a small 
plane into Kinshasa and had a chance to meet. It turned out the 
drivers that jumped into our jeep were not Congolese forces but 
Rwandan and Ugandan forces that were there helping to install 
Laurent Kabila as the new leader of Congo. Since that time, 
Congo has had many challenges. To repair the damage done to 
civil society, which was never that strong, and certainly to 
the institutions, it is going to take increased engagement by 
the United States House of Representatives.
    I know Chairman Payne has made quite a commitment in that 
regard. I think that as we move forward the first step is to 
set an example by taking apart the Lord's Resistance Army is to 
bring to the bar of justice or eliminate Joseph Kony. When we 
set up the institutions to help Africa accomplish that 
objective, we can move on to other problems such as the 
pillaging of minerals in eastern Congo both from Zimbabwe and 
from Rwanda. We need to lean in more heavily in terms of trying 
to force responsible behavior by the neighbors of the Congo.
    Again, I thank you, Mr. Chairman, for holding this hearing, 
and I thank Ambassador Carson for all of his work on the 
African continent then and now in order to help guide that 
continent toward stability. Thank you very much.
    Mr. Payne. Thank you, Mr. Royce, and thank you for all your 
years of interest and many of the achievements you have helped 
in Africa. Ms. Lee?
    Ms. Lee. Thank you, Mr. Chairman. I just wanted to welcome 
our witnesses and thank you so much for your service. I look 
forward to your testimony.
    Mr. Payne. Dr. Boozman? Let us see. Ms. Watson?
    Ms. Watson. Mr. Chairman, I would like to thank you for 
holding this timely hearing on U.S. policy and current 
conditions in the Great Lakes region. The international 
community has focused on this region, and yet there seems to e 
little improvement in the condition of the people. You have 
described much of it. The countries of the Great Lakes region 
are linked by a common history and culture. Boundaries have 
done little stymie the flow of people across the borders 
oftentimes fleeing to perceived safety in a neighboring region.
    Each nation has a unique political story, which nonetheless 
affects not only its own citizens, but people all around the 
Great Lakes regions. However, strikes are a common thread 
throughout. Human rights abuses are rampant, and though rape, 
as a tool of submission, remains prevalent throughout the Great 
Lakes region, the Eastern Democratic Republic of Congo remains 
known for the high incidents of rape of women and of children. 
The mineral conflict too rages on in the DRC making it one of 
the longest and most violent wars in the history of mankind.
    There are even stories of child soldiers fighting in these 
battles already hyped and romanticized in popular films, and 
much of the youth in this region remain without jobs and 
susceptible to manipulation leaving them easy prey for militant 
organizations. Democracy too is elusive. As we watch the 
preparation for elections in Rwanda and Burundi, I am unsure of 
how peaceful and fair the outcomes will be. Newspapers have 
been shut down. There are reports of violence occurring in 
Burundi already.
    With the constant instability, the condition of the people 
remains deplorable. Displaced by the Lord's Resistance Army, 
thousands of people are in need of humanitarian assistance in 
the DRC. Food and water shortages often occur, and healthcare 
is intermittent at best, and education services are limited for 
many. The President's initiatives are on food security, focused 
on food delivery at this time, PEPFAR and the President's 
Malaria Initiative cannot do enough because the need is too 
great.
    Nonetheless, great strides have been made already. Rwanda's 
MCC threshold program shows promise of increased stability in 
the region. The mineral conflict is beginning to be addressed 
effectively through the Kimberly Process though we still have a 
long way to go. The Great Lakes region is rich in terms of its 
people, its culture, its history and its natural resources, and 
I hope that we continue to help the people in the region reach 
stability, protect individual rights and maximize their 
potential, so I thank you, and I wait to hear from our 
distinguished witnesses, and I yield back the remainder of my 
time.
    Mr. Payne. Thank you very much. Mr. Flake?
    Mr. Flake. Glad to be here and look forward to the 
witnesses.
    Mr. Payne. Mr. Miller?
    Mr. Miller. Thank you, Chairman Payne and Ranking Member 
Smith, for holding this hearing. Mr. Royce and I created the 
Africa Great Lakes caucus some time back to call more attention 
to the conflicts and challenges that this region faces. There 
has been a cycle of conflict and economic failure. Conflict 
begets extreme poverty. Extreme poverty begets conflict, and on 
and on. As a result of the recurring conflict, there are now 
grave humanitarian conditions.
    Several members before have mentioned the brutal insurgency 
by the LRA and northern Uganda has displaced more than 1.5 
million people, resulted in the abduction of at least 20,000 
children, and that has gone on for more than 20 years in the 
Great Lakes region of Africa. The group continues to commit 
atrocities and abduct children across the region often 
targeting schools and churches. The United Nations estimates 
that 90 percent of the LRA's combatants are abducted children 
often as young as 10.
    When this horrific conflict finally ends, those children 
must somehow return to civilized society after learning as 
children to kill innocent human beings without hesitation or 
remorse. Whatever grievance may have originally motivated the 
LRA, that grievance has long since been forgotten, and the 
LRA's atrocities are just barbarism for Barbarisms own sake. 
Unfortunately, in that response, the LRA's insurgency is 
distressingly similar to other insurgencies in the region where 
brutal kleptocratic regimes create ample justification for 
conflict for rebellion.
    The rebels are frequently not motivated by the desire to 
free their country from brutality and conflict but by desire to 
replace the brutal kleptocrats in the regime so the rebels can 
be brutal kleptocrats themselves. It makes this very hard for 
us to pick a side in the conflicts of the region. The DRC has 
the deadliest conflict since World War II. It continues to 
terrorize communities throughout DRC and all the conflicts 
spill over from one country into the next. DRC after a 
generation or more of conflict now has the second lowest gross 
national income of the world.
    I visited DRC a couple of years ago on a congressional 
delegation to Kashasa, and Kashasa appeared to be a post-
apocalyptic society. It appeared to be a road-warrior movie in 
an urban setting. Rwanda has made great progress since the 1994 
genocide, but genocide sets the bar pretty low. There are 
increasing efforts apparently to stifle political descent. A 
New York Times article just last month described beggars, 
homeless people, petty thieves and dozen of children being 
rounded up and sent without any legal process at all to an 
island for rehabilitation.
    Refugees, rebel groups and resources flow across borders, 
and humanitarian crisis has increasingly become a regional 
challenge. Chairman Payne, again thank you for holding this 
hearing, and I look forward to the testimony of our witnesses 
today.
    Mr. Payne. Thank you very much all of the members who took 
time to come here this morning. Now, we will turn to our 
witnesses. First, we will hear from Ambassador Johnnie Carson. 
Ambassador Carson currently serves as Assistant Secretary of 
State for the Bureau of African Affairs at the Department of 
State. He has an established career in foreign service. He 
previously served as ambassador in Kenya, Zimbabwe and Uganda 
as well as the principal Deputy Assistant Secretary for the 
Bureau of African Affairs from 1997 to 1999.
    In addition to several posts in sub-Saharan Africa, he 
served as desk officer in the Bureau of Intelligence and 
Research from 1971 to '74, staff officer for the Secretary of 
State from '78 to '82. Beyond the State Department, Ambassador 
Carson served as the staff director for the House Africa 
Subcommittee from 1979 to 1982 and was a Peace Corps volunteer 
in Tanzania from 1965 to 1968.
    During his career, Ambassador Carson received several 
awards including the Department of State's superior honors 
award and the Centers for Disease Control's champion of 
prevention award. Ambassador Carson holds a bachelor of arts 
and history and political science from Drake University and a 
masters of arts in international relations from the School of 
Oriental and African Studies at the University of London.
    Secondly, we will hear from Mr. Franklin Moore, Deputy 
Assistant Administrator for the Bureau of Africa at the United 
States International Development Agency, USAID. A career member 
of the Senior Executive Service, Franklin C. Moore was 
appointed as Deputy Assistant Administrator for the U.S. Agency 
for International Development's Africa Bureau in January 2008. 
Prior to his appointment, Mr. Moore served as Director of the 
Office of Environmental and Science policy within the Agency's 
Bureau for Economic Growth, Agriculture and Trade, EGAT, since 
October 2002.
    Additionally, Mr. Moore has served as the acting Deputy 
Assistant Administrator and Director of the Agency's Global 
Center for the Environment. He received a masters degree in 
agricultural economics as well as a certificate in African 
studies from the University of Wisconsin in Madison. Mr. Moore 
studies for his PhD in development studies at the University 
Wisconsin in Madison, has served and lived both in west and 
southern Africa, and has worked in approximately 40 countries 
overseas. We are very pleased to have two very distinguished 
persons.
    I would also like to recognize a former colleague of ours, 
former Congressman Howard Wolpe, and I had the privilege to 
serve with former member Wolpe, who served as chair of this 
subcommittee when I was a new member and is now a senior 
advisor on the Great Lakes region at the State Department. We 
are very pleased to still have your expertise, and I know you 
are a great asset to the Department of State. Thank you. 
Ambassador Carson?

STATEMENT OF THE HONORABLE JOHNNIE CARSON, ASSISTANT SECRETARY, 
  BUREAU OF AFRICAN AFFAIRS, UNITED STATES DEPARTMENT OF STATE

    Mr. Carson. Chairman Payne, Ranking Member Smith, and 
members of the committee. I welcome the opportunity to appear 
before you today to discuss the current conditions and U.S. 
Policy in the Great Lakes Region. I have a longer statement 
that I would like to submit for the record.
    Mr. Payne. Without objection.
    Mr. Carson. The countries of the Great Lakes region are 
inextricably linked. Although each has its own unique 
challenges, events in one country invariably affect the others 
and often the wider region as well. We spend a great deal of 
diplomatic time and effort on the Great Lakes issues trying to 
help the countries of the region to resolve the many domestic 
and cross-border challenges that continue to put millions of 
civilians at risk. this has been a slow and daunting process, 
but the situation has improved as the countries in the region 
have strengthened ties amongst themselves.
    We have remained dedicated to doing what we can to keep 
that positive momentum going. Central to our efforts is 
improving the situation in the eastern part of the Democratic 
Republic of the Congo where the continuing presence of armed 
groups has been exacerbated by the lack of state authority. The 
Democratic Republic of the Congo's military, commonly referred 
to as FARDC, is ineffective and frequently abusive. The 
judicial and penal systems in the DRC are broken, and impunity 
rather than accountability reigns.
    Illegal natural resource exploitation funds armed gangs. 
Sexual- and gender-based violence is at crisis levels 
particularly in the eastern region. The Lord's Resistance Army 
is perpetuating and perpetrating attacks against civilians in 
the northeastern Democratic Republic of the Congo and also in 
the Central African Republic. The U.N. mission in the 
Democratic Republic of the Congo, MONUC, is stretched to the 
limit.
    I met with President Kabila on April 16 and expressed 
concern about the security vacuum that would result if MONUC 
left the DRC before the security situation in the east had 
dramatically improved and before local security services were 
sufficiently trained and able to protect civilians. He was 
receptive to the concerns that I raised as well as the concerns 
that have been raised by the international community. President 
Kabila has taken important steps to address insecurity, but 
they remain insufficient.
    Last year, he announced a zero-tolerance policy for sexual- 
and gender-based violence and also against corruption. 
Implementation has been lacking, but the recent arrest of a 
FARDC general for sexual- and gender-based violence-related 
crimes is an encouraging step forward. Both Secretary Clinton 
and Ambassador to the United Nations Susan Rice have pressed 
for action on this case during their visits to the Congo in 
2009, and we welcome the action by President Kabila and his 
government to go after individuals of senior rank who have been 
involved in sexual- and gender-based violence.
    President Kabila has also voiced strong support for our 
program to train a light infantry battalion in Kisangani. The 
training there includes a strong focus on improving FARDC human 
rights practices. In late 2009 and early 2010, we deployed 
assessment teams to the DRC to investigate the five issue areas 
that Secretary Clinton and President Kabila identified for 
greater bilateral cooperation when they met in August 2009 in 
Goma.
    The five areas include security sector reform, sexual- and 
gender-based violence issues, anti-corruption, economic 
governance and agriculture and food security. We have received 
the recommendations of these teams and are now pursuing with 
the Democratic Republic of the Congo's Government those 
recommendations that we believe can achieve the best short- and 
medium-term results. We also need to keep an eye on population 
movements. There are over 1 million internally displaced 
persons (IDPs) in the North Kivu Province alone and 2 million 
displaced persons nationwide.
    As these IDPs and DRC refugees in surrounding countries 
begin to return home, there is a potential for renewed 
conflict. There will also be increased demands for humanitarian 
assistance and also limited capacity by the Government of the 
Democratic Republic to provide it. Lastly, with regard to the 
DRC, we are looking ahead to national elections in September 
2011 and local elections 1 year later. In my conversations with 
President Kabila last month, I stressed the importance of 
adhering to this democratic electoral calendar. The government 
has promised that the elections will be free, democratic and 
transparent. We hope that this will be the case.
    Let me turn briefly to Rwanda. In Rwanda, the August 
Presidential elections are expected to be peaceful and non-
violent, but the security environment ahead of that vote is of 
ongoing concern. Recent grenade attacks in Kigali have caused 
numerous casualties as well as anxiety and unease in the 
civilian population. We strongly condemn those attacks. We also 
have concerns about recent acts by the Rwandan Government, 
which appear to be attempts to restrict freedom of expression.
    These actions, including suspending the licenses and 
activities of two newspapers, revoking the work permit of a 
Human Rights Watch researcher and arresting and later releasing 
on bail the opposition leader, Victoire Ingabire, who has ties 
to the FDLR. Two political parties, the green party and the 
FDU-Inkingi party have been unable to register. We have urged 
senior Rwandan Government officials to respect the freedoms of 
expression, press and association as well as assembly.
    We have stressed that the international and domestic NGOs 
and media should be allowed to operate and report freely in 
Rwanda. We have also called for due process and a fair and 
speedy trial for Mrs. Victoire Ingabire. Overall, longer-term 
stability in Rwanda is best promoted by democratic governance 
and a respect for human rights. Rwanda and its regional and 
international partners must work together to achieve the free, 
fair and peaceful elections that the people of Rwanda deserve.
    Now, turning to Burundi. Our hope is the same in Burundi, 
which has just held the first in a series of five elections for 
local and national-level institutions. We have undertaken 
numerous public and private efforts to reinforce the message 
that credible elections are necessary for long-term stability, 
economic growth and the growing partnership between the 
Government of Burundi and the United States. The political 
arena in Burundi is diverse. Twenty-three political parties 
competed in yesterday's communal-level elections including the 
last of Burundi's rebel groups, the FNL.
    The party seems satisfied with the neutrality of the 
National Independent Electoral Commission, CNIE. The media are 
relatively free and professional and have mobilized to pool 
resources and share their national electoral coverage. 
Burundian Civil Society has mobilized to observe the elections 
and to monitor outbreaks of violence, and all political 
parties, including the ruling party, have welcomed 
international observation.
    Unfortunately, Burundi also suffers from a large population 
of young, unemployed people who are frustrated with their 
economic position. Given that there are 200,000 weapons still 
in circulation throughout the country, the risk of violence 
continues to be high. In addition, ruling party officials have 
used government resources for political advantage, and some 
have intimidated opponents. There have already been violent 
clashes among the members of the five major parties.
    Most alarming, two members of the Movement for Solidarity 
and Democracy Party were killed in a rally on May 13. We have 
repeatedly cautioned all political party leaders about the need 
to avoid intimidation, provocation and violence. We have called 
on the government security forces and prosecutors to accelerate 
the investigations and prosecutions of those responsible for 
election-related incidents of violence and intimidation.
    The Government of Burundi's decision to expel a Human 
Rights Watch researcher on the grounds that a recent Human 
Rights Watch report is biased against the ruling party appears 
to be an effort to clamp down on foreign and domestic NGOs that 
are critical of the government and its policies. We have 
conveyed our concerns to Burundian officials about this and 
have urged constructive dialogue with NGOs and civil society.
    Mr. Chairman, members of the committee, I want to thank you 
for this opportunity to appear before you today, and I will be 
happy to answer any questions that you may have. Thank you.
    [The prepared statement of Mr. Carson follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Payne. Thank you very much. Mr. Moore?

       STATEMENT OF MR. FRANKLIN MOORE, DEPUTY ASSISTANT 
   ADMINISTRATOR, BUREAU FOR AFRICA, OFFICE OF THE ASSISTANT 
     ADMINISTRATOR, UNITED STATES AGENCY FOR INTERNATIONAL 
                          DEVELOPMENT

    Mr. Moore. Good morning, Chairman Payne, Ranking Member 
Smith and members of the subcommittee. I appreciate the 
opportunity to appear before you today to discuss conditions in 
the Great Lakes region and USAID's contribution to sustainable 
development in those countries. I have a longer written 
statement, which I would like to submit for the record.
    Mr. Payne. Without objection.
    Mr. Moore. Thank you. My testimony today will add to that 
of Assistant Secretary Carson's, who has provided the 
subcommittee with information on the U.S. Government policies 
in the region. Our work directly supports those policies and 
focuses on a number of sector, including economic growth, peace 
building, democratic development, health, education, food 
security and environmental protection. We also continue to 
respond to both man-made and natural humanitarian crises in 
many of these states.
    While significant progress has been made across the region, 
equally significant challenges persist: Corruption, poor 
infrastructure, cross-border conflicts, sexual- and gender-
based violence and human rights abuses, poor health outcomes, 
high unemployment, humanitarian crises and food insecurity. 
National issues frequently spill across borders to become 
regional concerns or crises. I would like to briefly outline 
some of these key issues and USAID's response.
    One of the most pressing issues that will affect 
development in the Great Lakes in the coming year is rapid 
population growth. This will strain the abilities of already 
stretched government to provide service delivery and 
sustainable economic growth. An increasingly young population 
present an increased risk for instability and conflict. USAID 
programs across the sectors target youth in order to boost 
civic participation, improve livelihoods and increase access to 
education to provide an alternative to confrontation and 
violence. The recruitment of child soldiers also remains a 
critical concern for youth population, particularly the lasting 
damage caused.
    Another issue for the region is the abhorrent use of 
sexual- and gender-based violence both as a tool of war and as 
part of the daily lives of women and children throughout the 
region. In addition to addressing the immediate care and needs 
of victims of sexual- and gender-based violence, USAID has 
actively supported the drafting of critical legislation and 
subsequent prosecutions in cases of sexual- and gender-based 
violence in the DRC, and we continue to seek opportunities to 
address this issue at all levels. Combating this issue is not 
solely about broadening access to legal, medical, psycho-social 
and economic services. It fervently tied to changing 
perceptions of gender and women's empowerment.
    Food security is of paramount concern. In the DRC, 72 
percent of the population is currently undernourished and 
surviving on less than the absolute minimum daily caloric 
requirement. This administration's Feed the Future initiative 
will boost production to attempt to meet the food needs for the 
growing population of these states.
    Recognizing that higher production does not automatically 
translate directly into a better quality of life, activities to 
address nutrition and governance issues related to distribution 
and regulation are critical and included. Activities will focus 
on linkages to the regionally strong and very active common 
market for eastern and southern Africa and Economic Commission 
for Africa to ensure that there is a sustainable platform for 
trade.
    Land tenure issues also continue to be an underlying source 
of many of the region's conflicts. With high population 
densities, internally displaced persons and the return of 
refugees in Rwanda, Burundi, eastern DRC and Uganda, the 
question of land distribution and access is critical to 
economic growth. USAID is working on programs in Burundi to 
inclusively develop new land policy in order to reduce the risk 
of conflict.
    There are mounting tensions over land tenure and property 
rights in eastern DRC. USAID is addressing these issues through 
peace building and community mediation programs as well as 
working with the Government of DRC to address the overall legal 
framework for land tenure. In Uganda, we have launched an 
inter-agency conflict assessment to look at the sensitive 
issues of decentralization, proposed relocation of pastoralist 
communities to urban centers and the discovery of oil.
    We believe that we are in a new era for development in 
Africa focused on aid effectiveness and host-country ownership 
that will translate into meaningful progress toward the 
Millennium Development Goals. We are aligning our work to more 
directly support harmonization of aid strategies, results-based 
programs and mutual accountability between donors and aid 
recipients. Our work in the Great Lakes is coordinated with 
both host-country action plans on a sectorial basis and with 
broad-reaching poverty reduction strategies.
    Thank you, Mr. Chairman, Ranking Member Smith and members 
of the subcommittee for your continued support for USAID. I 
welcome your questions.
    [The prepared statement of Mr. Moore follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Payne.. Thank you very much. We certainly appreciate 
both of your testimonies, and I might just begin by asking, 
Ambassador Carson, you mentioned that you had a conversation 
with President Kabila in regard to his strategy to have the 
MONUC forces reduced. What was the rationale for his wanting 
initially to see them reduced, and where does it stand at the 
present time?
    Mr. Carson. Mr. Chairman, thank you for that question. 
Indeed, I did have an opportunity to talk with President Kabila 
about the presence of the MONUC forces there. I think that we 
have to remember that this year is the 50th anniversary of the 
Congo's independence, and I think that President Kabila wanted 
to demonstrate that after 50 years of independence in which 
there has been an almost continuous presence of U.N. 
peacekeepers there that the country could move ahead and begin 
to do without United Nations' peace keeping forces.
    I think he was intent on making a statement at the 
anniversary that there would be a withdrawal of U.N. peace 
keeping forces, so I think it had a lot to do with domestic 
politics, the country's political pride, the long-standing 
presence of U.N. peacekeepers there and the desire to show 
after 50 years that the Congo no longer needed to rely on 
peacekeepers. I must say that President Kabila demonstrated 
flexibility in the discussions about this and I think he is now 
increasingly aware of the continued need for U.N. peacekeepers 
in the eastern part of the Congo.
    I took the opportunity to stress to President Kabila that 
as long as there was wide-spread instability in the eastern 
Congo, the presence of rebel groups that had not been 
contained, and a high level of sexual- and gender-based 
violence, that there was a need for a presence of U.N. forces. 
But, as I said, President Kabila is showing increasing 
flexibility on this issue, and we hope that it will be resolved 
in the U.N. Security Council to the satisfaction of the council 
as well as to the satisfaction of the Government of the Congo.
    Mr. Payne. Thank you very much. Mr. Moore, since the whole 
Congo basin region, the Great Lakes region is so fertile, are 
there any agriculture programs? I know you touched on it a 
little bit, but what are we doing to try to encourage Great 
Lakes countries to take a stronger look at agriculture in 
general?
    Mr. Moore. Thank you, Mr. Chairman. In the President's food 
security initiative, Feed the Future, two of the targeted 
countries or three of the targeted countries if one goes just a 
little beyond the Great Lakes includes Ethiopia and includes 
Uganda within the Great Lakes. It also includes Kenya. As 
Ambassador Carson pointed out, one of the five assessments that 
was made in DRC was a food security assessment, and so their 
food security and agricultural portfolio is also being 
heightened.
    That is looking particularly at the production side. On the 
other side, there is a desire to make sure that increasingly 
food and agricultural produce is able to move across borders 
more quickly and more efficiently, and for that work, as I said 
in my testimony, we are working primarily with COMESA, which is 
looking at the concept of one border stops so that two 
countries would adhere to the same standard.
    That would allow food to move across their borders much 
like food moves across the borders of our states here in the 
United States as well as looking at transportation corridors 
and working increasingly with the Millennium Challenge 
Corporation in those places where they have engaged in programs 
to provide them and the countries with some information that 
might help to mitigate transportation problems.
    Mr. Payne. Thank you. My last question since my time has 
expired, but, Ambassador Carson, I previously raised the 
question of Rwandan genocide suspects who are living in the 
United States of America. I could currently give you a list of 
five persons who are still here, but two in particular, Mr. 
Zahirim Berry, and one who is actually in my home state 
teaching at a university, Montclair State, Dr. Munyakazi, who 
then left the state after I raised some questions with the 
university there but came down to teach again at Tulsa State 
University.
    There is evidence he escaped from prison in Rwanda. There 
is a warrant out for his extradition, and he continues to be 
able to live here in the United States. I wonder if there is 
any information you have regarding at least the case from the 
professor who is still in education here in the U.S.?
    Mr. Carson. Mr. Chairman, I don't have any specifics about 
that particular case, but I would like to say that the United 
States remains committed to doing everything that it possibly 
can as a part of the international community to bring to 
justice those individuals who were most responsible for the 
perpetration of the genocide that occurred in Rwanda in 1994. 
The United States has had a Rewards for Justice program that 
has been effective in helping to track down genocidaires around 
the world, and some of our people in our embassies, our legates 
and others have helped to do so.
    You probably are aware with respect to individuals in this 
country that we do not have an extradition treaty with the 
Government of Rwanda, but that does not in fact inhibit us from 
looking at individuals who have come into the United States 
under false pretenses and violated our immigration laws. We 
also look at individuals whom we believe to be involved in 
crimes that are also against other statutes of the United 
States.
    We will look at these individuals. We will refer the names 
to our legal office and also to the Department of Justice, and 
we will continue to follow up on any individuals who we believe 
to be involved in the past genocide in Rwanda.
    Mr. Payne. Thank you very much. We will certainly like I 
said give you all the information that we have. We are very 
particular as my colleague, Mr. Smith, has a different type of 
a case, but a young child whose parents were here in the United 
States and tried for years and years to finally have that child 
come back to this country, and we were criticizing the laws of 
Brazil for not allowing this to happen more quickly, and here 
in a situation where Rwanda is asking us to cooperate with 
them, we can't have it both ways.
    We can't ask other countries around the world to cooperate 
with us and then we don't cooperate with other countries, and 
so I certainly will follow up with you on that, Mr. Assistant 
Secretary. Mr. Smith?
    Mr. Smith. Thank you very much, Mr. Chairman. Let me just 
ask. I think, Mr. Moore, you would be the one that might want 
to answer this. The CDC letter pointed out that in Uganda 
approximately 100,000 HIV-infected individuals received ARV 
interventions funded by the U.S. Government, and yet the letter 
said that the U.S. Government recognizes that in the coming 
years the number of patients in need of antiretroviral 
treatment will increase dramatically.
    Basically, the letter said there is a moratorium put on new 
patients being signed up and that the government is being 
encouraged to find additional funding to meet this great need. 
I am wondering what has been the impact of this new policy on 
people who are sick? Have people died as a result of this unmet 
need not being adequately met by either ourselves or in 
collaboration with our partners in Europe and elsewhere? To me, 
this is a banner issue, the fact that we have raised 
expectations, and it would appear we are not about to meet 
those expectations.
    Mr. Moore. Thank you, Mr. Smith. Unfortunately, I will have 
to get back to you on that. Here is the reason: Last week, the 
U.S. Government--all of the U.S. Government including CDC, 
USAID, Peace Corps and all of those who are implementing 
PEPFAR--had their annual meeting in Arusha, Tanzania, and this 
was one of the major subjects that they took up. Unfortunately 
for us, our staff who participated in the meeting since they 
were on the continent, went off to visit some of the countries 
concerned and are just beginning to get back. I will pose this 
question to them, and we will get you something.
    [The information referred to follows:]
  Written Response Received from Mr. Franklin Moore to Question Asked 
        During the Hearing by the Honorable Christopher H. Smith

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Smith. If you would. One of the things that all of us 
recognized when the original PEPFAR legislation was passed and 
then when it was reauthorized is that we need to keep faith 
with those who are sick and dying in Africa and anywhere else 
where the ARV can not only extend their life but give them a 
quality of life. There is a broad consensus in Congress that 
every dollar we spend in helping people with this dreaded 
disease is money well spent.
    I don't know if the chairman was advised, but I certainly 
wasn't advised except by some of the partners who got this 
infamous letter putting a moratorium on any new patients that 
might sign up. As I said in my opening, this could have very 
severe, negative consequences even within families themselves 
as decisions are made as to who gets what. If new enrollees are 
being blocked, it seems to me that individuals who are 
currently getting ARVs might take themselves off of it, so it 
is a very serious issue. Ask us if you need more money.
    Secondly, let me ask, and I have asked this several times, 
about the OIOS investigators for MONUC. I met with a member of 
the Royal Police from Canada who headed up the OIOS mission in 
Goma, and he was shocked beyond words that there would be a 
redeployment. This was a couple of years ago. That redeployment 
of those investigators has taken place. How do you monitor 
something from so many miles away? Yes, there are some people 
that could alert the OIOS folks, but it seems to me you need a 
very significant deployment rather than decreasing it.
    Let me also ask you if I could? You mentioned, Ambassador 
Carson, how did you put it? You are mildly encouraged that 
President Kabila had announced a zero-tolerance policy, which I 
think is a good thing obviously, regarding gender-based 
violence but also that they had arrested a general. Could you 
elaborate on who that general was, what he has been accused of 
and most importantly, because we have learned this, and I know 
the chairman knows this as well from all of our trafficking 
work, an arrest does not a prosecution make. What is being done 
with the prosecution and how far along is that?
    Finally, I do have many questions, but time is of the 
essence I guess. When you talk about drafting legislation, 
which sounds like a very good thing, could you provide the 
committee with exactly what it is we are drafting, what kind of 
legislation we are collaborating with in each of these 
countries?
    Also, I chaired a briefing a couple of weeks ago on the 
Bill and Melinda Gates Foundation's blockbuster study on 
maternal mortality that was carried in the Lancet in early 
April. I have read the study. It is a very well-controlled 
study. The Gates Foundation found that the number of women 
dying, maternal mortality, is significantly less than what WHO 
and others had advertised, which is good news. It is great 
news. But they also said that the reasons why the mitigating 
factors for maternal mortality include such things as having a 
skilled birth attendant available so that if there is an 
obstructive delivery, a cesarian section could be performed so 
that both mother and baby are allowed to live rather than dying 
a terrible, terrible death.
    Nowhere in Lancet or in the article did it mention abortion 
as in any way a factor. I think it is one of the most 
misconceived ideas that somehow killing an unborn child averts 
or brings down maternal mortality, and it wasn't in the study I 
am happy to say. But if you could speak to the issue of what 
are we doing to build up, train up skilled birth attendants, 
because that is the answer it would see to me. And it now has 
been further authenticated by the Gates Foundation and by the 
Lancet publication of that foundation study.
    Mr. Carson. Congressman Smith, you addressed two questions 
that I think I should answer. The first one pertains to the 
OIOS, which is in fact the Office of Internal Oversight 
Services of the United Nations. This organization, as you and 
other members are probably aware, is set up to look over the 
conduct of U.N. peacekeepers in the field. The U.S. position 
with respect to OIOS is clear. We believe that U.N. 
peacekeepers should be held to the highest legal and 
humanitarian standards in carrying out their responsibilities 
and obligations overseas, and we think it is important that the 
OIOS in fact be present to do their work.
    There are currently three OIOS positions based in the 
eastern part of the Congo in Goma. Two of those individuals are 
investigators, and one is a senior support staff member. In 
addition, there are no less than 10 OIOS officers and staff 
based in Kinshasa, but there are indeed 22 OIOS investigators 
assigned to the regional hub in Nairobi, Kenya, and I think it 
is the deployment of those 22 investigators that your question 
pertains to the reality is that the U.N. has moved those 
individuals to Nairobi as a part of a pilot effort in order to 
be able to save some money and resources.
    The other side of the reality is that it is actually easier 
to move from Nairobi to Goma on most days than it is to move 
from Kinshasa to Goma given the limited transportation 
arrangements. We have looked at this issue, are waiting for the 
U.N. to determine whether this pilot effort will work 
affectively, but our central concern remains, and that is that 
those individuals who are part of the U.N. peace keeping forces 
who do undertake illegal activities should be investigated and 
prosecuted and that the OIOS should do this wherever they are 
centrally based, whether it is Kinshasa or whether it is 
Nairobi or whether there are people on the ground in Goma.
    You also asked about the recent arrest of a senior 
Congolese general, and I am going to butcher the name because I 
think the name is General Kakwavu. Last year in 2009 when 
Secretary Clinton met with President Kabila in Goma, she 
reiterated a message that had been conveyed earlier by U.N. 
Ambassador Susan Rice about five senior Congolese military 
officers who had been accused of sexual- and gender-based 
violence. These individuals have been known as the FARDC 5. The 
general who was arrested was the highest ranking of those 
individuals.
    Three of the FARDC 5 are now under government 
investigation. The general has been arrested. Two other 
individuals who are colonels have been relieved of their 
responsibilities and are under detention/house arrest in 
Kinshasa but not carrying out military activities at all, and 
two of the other individuals have fled and we believe have left 
the country, certainly at least one. We have continued to press 
President Kabila to take action at all levels against officers 
as well as enlisted individuals in the military who have been 
involved in sexual- and gender-based violence.
    We believe again that this is a step forward, but I want to 
underscore that given the high level of sexual- and gender-
based violence, the high level of violence that exists in the 
eastern Congo, these are very, very small steps, and they need 
to be magnified not in terms of 5 or 10, but in terms of 100 
and 1,000 times. There is in fact far too much gender-based 
violence in the east, and there should be no impunity for those 
who carry it out whatever their rank. This is a step forward.
    We encourage President Kabila to live up to all of his 
commitments in this area. It is not enough simply to say I 
support zero tolerance. It must be made to be fact, and that 
can only be demonstrated by arrests, by prosecutions and 
imprisonment.
    Mr. Smith. Thank you.
    Mr. Moore. Thank you, Mr. Smith. The two pieces that you 
asked for me, I spoke to critical legislation as it relates to 
sexual- and gender-based violence in DRC, and we will get you a 
full list. But the legislation falls basically into two areas. 
The first area is the fact that there are still on the books 
many discriminatory laws that sanction the lower status for 
women in DRC. For example, women can't open a bank account or 
file a case in court without their husband's approval.
    [The information referred to follows:]
  Written Response Received from Mr. Franklin Moore to Question Asked 
        During the Hearing by the Honorable Christopher H. Smith

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Moore. Also, in many cases, women are not permitted to 
actually own land in their name, so one of the areas is looking 
at getting some of these laws off of the books and creating 
some laws that empower women such as the land tenure that I 
speak of. The other areas, there is a little work being done 
with the judiciary given that the judiciary continues to suffer 
from a lack of independence. The other area that you asked 
about was maternal mortality and birth attendants.
    I believe that this is one of the justifications and 
reasons for the President's Global Health Initiative, and that 
Global Health Initiative is intended so that many of the areas 
of health, like maternal health, which given our emergency look 
at HIV/AIDS or emergency look at malaria, in the short term 
suffered because many of the women who would be women as birth 
attendants moved into these areas of care. One of the ideas of 
the initiative is to help rebalance that care in the health 
field so that it covers such things as maternal mortality, 
birthing, et cetera, et cetera. Thank you.
    Mr. Payne. Thank you very much. Ms. Watson?
    Ms. Watson. I want to shift the questioning a bit to Mr. 
Ambassador Carson. In your testimony, you mentioned the 
political environment in Burundi and Rwanda, and both nations 
are quickly approaching elections that we hope will be fair and 
peaceful yet. There are 200,000 weapons in Burundi, and most of 
the over 25-year-old population is unemployed and frustrated, 
and there have been violent clashes among the five ruling 
parties.
    The Government of Burundi's decision to expel a Human 
Rights Watch researcher is also very disturbing, and Rwanda 
similarly has recently suspended two newspapers, prevented some 
political parties from registering for the election, also 
denied the visa to a Human Rights Researcher. The question is 
in the face of such adversity, what kind of elections can we 
really expect, and what can be done to reduce the violence 
before or after the elections, and will any election results 
hold legitimacy with the public?
    Mr. Carson. I think that both of these countries have had 
very, very traumatic histories in which they have faced great 
adversity and civil unrest, and they are both coming out of 
long periods of adversity. I think that we have worked with and 
encouraged both governments to hold elections that are credible 
and fair, that they should in fact open up political space for 
the opposition, that they should allow civil society to 
participate, and we continue to encourage them to move in a 
positive direction.
    Despite the violence that we have seen in Burundi, progress 
is being made in that country and that it is coming back from a 
long period of greater instability. In Rwanda, we continue to 
encourage the government to build on the progress that it has 
made since the genocide of 1994 and not to begin to stall its 
political process or to allow it to move back.
    Ms. Watson. Let me ask you if do we get the international 
election observation groups like the Carter Center involved 
prior to these elections? We know they will come in, these 
international organizations, during an election as observers. I 
have been part of that group from time to time. What are we 
doing prior to help them know how to run good and effective 
elections?
    Mr. Carson. In Burundi we have been extremely active in 
helping the government improve the climate for multi-party 
activities. We have worked not only via the Carter Center but 
also the Woodrow Wilson Center. The National Democratic 
Institute also has been engaged and involved on the ground.
    Ms. Watson. Is that ongoing?
    Mr. Carson. These are ongoing. We also ourselves in the 
Department of State have a robust democracy and governance 
program that we fund to help support elections, and we have 
contributed a substantial amount to the government to help 
ensure that the elections are run and run freely and fairly, so 
we are engaged, and we are actively monitoring the situation in 
Burundi and also in Rwanda.
    Ms. Watson. I was stunned. Which one of the countries has 
23 parties?
    Mr. Carson. That is Burundi.
    Ms. Watson. How does that work?
    Mr. Carson. It is in fact democracy at its best.
    Ms. Watson. I will have to look into that more. Let me move 
on to Ambassador Moore.
    Mr. Carson. Lots of public participation.
    Ms. Watson. Exactly. Everyone in the public is in a party 
in the legislature. Okay. Ambassador Moore, your testimony 
noted that Rwanda has made extraordinary progress to improve 
the economic health and social well-being of its people 
relative to its neighbors, and the MCC just recently signed a 
threshold program to improve its progress. Yet, in light of the 
coming elections, newspapers have been closed and political 
parties unable to register.
    Rwandans that fled during the genocide are said to be 
returning to the nation, especially as the situation in the DRC 
worsens, so what is the situation currently between the Hutu 
and the Tutsi, and are any of them returning and with what 
frequency, and will this return affect the relationship between 
the Hutu and the Tutsi? I am also glad to hear of the MCC's 
threshold program in Rwanda, so can you expand on that, and 
what is USAID's role in all of this?
    Mr. Moore. Thank you, ma'am. Let me see if I can sort of 
systematically try to answer your question.
    Ms. Watson. Yes.
    Mr. Moore. I do believe that there is a continued return of 
displaced persons to Rwanda. Part of that is pushed from the 
places they currently are living as conditions deteriorate, but 
part of that is a pull from Rwanda from the economic success.
    Ms. Watson. Right.
    Mr. Moore. I think you contrasted some of the things that 
may be viewed as economic success with some of the things that 
may be viewed as political lack of success, but on the economic 
side, there has been a lot of success in Rwanda, and it has 
attracted returns. Does that create problems? Yes, it does 
create problems. Rwanda is an area that has a very high 
population density. As one attracts people back to the country, 
it creates issues of land tenure, land ownership, and who has 
rights to use what land.
    They have been, in some areas, very successful in 
integrating those populations. I would say from my visits there 
I certainly haven't noticed that it contributes to an increased 
ethnic tension. It has in some ways caused them to do their 
economic business in some different ways. For example, they 
have moved from pastoralists, who are wandering pastoralists, 
toward a more settled form of both milk production and meat 
production and converted some of their farms into growing 
traditional grasses for cows so that they can produce dairy by 
holding the cow in a pen rather than allowing the cow to 
wander. Let me see.
    Ms. Watson. That is all right.
    Mr. Moore. I think I have covered the highlights.
    Ms. Watson. Yes, you have given us an overview, and my time 
is up. If I may, Mr. Chairman, I just wanted to go back to 
Ambassador Carson, and you mentioned the funding that comes out 
of State Department for these election activities. Do we fund 
you adequately enough to do this tremendous job you are trying 
to do in that area of the world?
    Mr. Carson. Democracy and governance in Africa is President 
Obama's principal foreign policy objective and priority in and 
across the continent. He said as such in his speech in Cairo in 
June of last year when he spoke before the Parliament. 
Additional monies and resources to fund the number one priority 
are always useful. We can never spend enough on helping to 
strengthen the principles of good governance which are 
fundamental to both our human rights protection as well as the 
strength of economies.
    Ms. Watson. Well, I just want to say, Mr. Chairman, that I 
think our monies that we give and donate to these countries 
could be well used rather than our monies that we put into 
fighting wars that have no end to them, and the $15 billion we 
put in a month to Iraq to me was wasted money, and we lost 
lives, too. We have a difficult time with budgeting as you know 
with these deficits, but I can see these countries through the 
efforts through the State Department, your efforts, making 
progress.
    It might seem small, but it is, and they can use the money 
we give more effectively than we do, and the USAID is an 
example of finding ways and giving monies to NGOs because I 
think they do a better job, but anyway, I would hope that we 
can have some concentration on funding the activities in these 
countries because I think the continent of Africa is the 
resource we are going to be looking toward in the next 10 years 
right now in terms of supplying our needs in this country, too.
    Helping to settle and stabilize that continent would help 
us in other areas of the world, so thank you very much, and I 
am sorry to use so much time, but I think these are important 
statements with these very informed experts here. Thank you.
    Mr. Payne. Thank you very much, Congresswoman. Mr. Royce?
    Mr. Royce. Thank you, Mr. Chairman. I was going to ask a 
question of Ambassador Carson that relates to the referendum on 
independence of southern Sudan. That is looming, I think, in 
January of next year. The worry for a lot of people that have 
looked at this is that unless the LRA is permanently dealt with 
now that given the reported ties they have had in the past in 
terms of both munitions they have received and training and 
then especially recently sending some of their officers to 
Khartoum to be patched up, the worry is that Khartoum might put 
that killing squad to work if things went from bad to worse in 
south Sudan. I want to ask you about that.
    Mr. Carson. Congressman Royce, thank you. Let me first of 
all say that we are committed to the full implementation of the 
Comprehensive Peace Agreement that was signed in Naivasha, 
Kenya, back in January 2005, and the key component of that 
agreement is the opportunity for the people of southern Sudan 
to participate in a referendum, which should be held in January 
2011, to determine whether they want to remain as part of a 
united Sudan or a part of an independent souther Sudan. We 
think it is important that Comprehensive Peace Agreement be 
fully implemented and that the will of the southern Sudanese be 
allowed to take expression.
    With respect to the LRA, we are deeply concerned about the 
continued activities of Joseph Kony and the LRA. They have 
moved out of Uganda into the northeastern part of the Congo 
into the area around the Garamba Forest and have occasionally 
forged further north into the Central African Republic and also 
into parts of the southern Sudan. We have committed ourselves 
to being of assistance to the Ugandan Government as they have 
attempted to track down one of the most violent killers in 
Africa, and we remain supportive of Ugandan efforts consistent 
with the Ugandan Government securing the permission of 
neighboring states to have their troops operate across borders.
    Mr. Royce. Very good. Well, let me also ask you about two 
other issues, one Ethiopia and the other Rwanda, where I think 
we need to lean in. After the 2005 election where the 
opposition did too well for his liking President Meles began a 
process where political opponents and local journalists were 
often jailed. Foreign journalists were denied visas. The 
government there jams our VOA broadcasts despite the fact that 
they receive nearly $1 billion of aid. The State Department 
reports that the Ethiopian Security Services commit politically 
motivated killings, so the Meles government has the repression 
thing down pretty well.
    As I have said before, only brutal Eritrea next door makes 
Ethiopia look good. There was a piece in the New York Times 
with a comment by a dissident, but basically the government 
there is committed to revolutionary democracy, and that is a 
collectivism that tolerates no dissent. The New York Times 
quotes this prominent Ethiopian dissident saying they still 
have this leftist ideology that the Vanguard party is right for 
the people. Well, they always will, and we need to lean in 
hard. We have to speak out more about the human rights 
violations that occur there. Otherwise, these elections become 
a charade.
    On Rwanda, I thought you put it well in your paper. You 
said, ``In a period of months, the Government of Rwanda has 
suspended two newspapers, revoked the work permit and denied 
the visa of a Human Rights Watch researcher and arrested and 
subsequently released on bail an opposition leader.'' Well, 
Paul Rusesabagina wrote in the Wall Street Journal the other 
day, ``Warning signs are everywhere.'' Then, we have the 
problem in the eastern Congo that Rwanda continues.
    As Human Rights Watch reported, ``[T]he Rwandan Government 
has repeatedly backed Congolese rebel groups willing to fight 
the Hutu militias. Since 1996, Rwanda has backed three 
different Congolese rebel groups (and sometimes other splinter 
factions) who agreed to fight the Rwanda Hutu militias,'' but 
here is the other part of that, the real difficulty of it is 
those same groups also see the overthrow of the government in 
Kinshasa.
    You mentioned that you are stepping up your engagement on 
conflict minerals. This is of course another problem with 
respect to the extraction the Rwandans are doing in the eastern 
Congo. It is a good place to start, but how do we bring 
additional pressure and muscle to bare on both Ethiopia and 
Rwanda so that in the future there are elections there in which 
people actually have an opportunity to bring about the rule of 
law, and you don't have a continuance of problems?
    I see Mr. Wolpe here. We appreciate the special envoy's 
engagement to try to solve these problems. If civil society 
really sees a hopeful future where everyone has a place, and 
there is freedom of speech, and there is the ability of upward 
mobility because you have a more open society, there is a 
better chance of resolving conflicts. Ambassador?
    Mr. Carson. Congressman Royce, we do a number of things in 
both Rwanda and also Ethiopia, and across the continent with 
respect to issues of democracy and government. We engage with 
senior government officials encouraging them to strengthen 
their democratic institutions, to provide for freedom of the 
press, provide for greater opportunities for civil society, 
improvement of independent electoral commissions so that when 
elections are held, people will have confidence that they have 
credibility.
    We encourage groups like NDI, NED, IRI, and the Carter 
Center to become engaged in democracy-building programs. We 
encourage the growth of civil society at all levels so that 
they can become more active in terms of their participation as 
well as in their ability to audit and review government 
activities. We work with our diplomatic colleagues from other 
democracies and encourage them to engage with governments, and 
we do that, and we speak out aggressively.
    Mr. Royce. Well, we should shout from the rooftops if we 
are giving $1 billion to Ethiopia and they are simultaneously 
jamming our VOA broadcasts. I can't even imagine what would be 
so objectionable that they have to jam the broadcasts. These 
corrupt elections in these countries receive so much largess 
and support from the United States. I agree on the engagement, 
and I know how much you are engaged.
    Sometimes we just have to bellow and shout. Otherwise how 
are we going to change the dynamics in Ethiopia to make sure 
once all of the newspapers, beyond that once all the reporters 
have been jailed, and the opposition are either jailed or 
intimidated that if you join the opposition you might be? 
Additionally VOA broadcasts can't even come into the country. 
How are people going to get news and information?
    Mr. Carson. Let me just speak to a couple of those points, 
and you talked about shouting very clearly.
    Mr. Royce. Yes. Right.
    Mr. Carson. I will send you, Congressman Royce, the letter 
that was sent from the State Department to Prime Minister Meles 
about the issue of jamming VOA. It was in fact very strong. It 
was very clear, and it was very forceful. We note in the world 
that there are probably only four or five nations that attempt 
to jam VOA today, and I think that Ethiopia does not want to be 
included amongst them, and of course those are nations such as 
Cuba and North Korea.
    Mr. Royce. Yes.
    Mr. Carson. We appreciate the level of collaboration that 
we receive from Ethiopia in a number of areas, but we also 
believe the Ethiopia must do better in strengthening its 
democratic institutions. Ethiopia went to the polls on Sunday, 
just a couple of days ago, and while the elections were calm 
and peaceful and largely without any kind of violence, we note 
with some degree of remorse that the elections there were not 
up to international standards.
    We note that over the last 1\1/2\ years to 18 months that 
the government has taken clear and decisive steps that would 
ensure that it would garner an electoral victory, and that is 
indeed what has happened because of the level of opposition 
representation that appears to have won seats in the 
legislative branch of the Ethiopian Government has dropped 
quite significantly. It is important that Ethiopia move forward 
in strengthening its democratic institutions, and when 
elections are held that it level the playing field to give 
everyone a free opportunity to participate without fear or 
favor.
    Mr. Royce. I appreciate that, Ambassador. The international 
community has been speaking out about his election not being 
credible, and I also appreciate your words as well, and thank 
you very much, Mr. Chairman.
    Mr. Payne. Thank you. Mr. Miller?
    Mr. Miller. Thank you, Mr. Chairman. It is apparent from 
conversations if not from public statements that some of the 
international community's earlier enthusiasm for the Museveni 
government in Uganda has dimmed substantially and seems on a 
trajectory to dim much further. Both of you in your testimony 
apparently suggest that governments in this region should not 
be judged by how they compare to an ideal, but by whether they 
are getting better or getting worse, and it appears that on 
democratic governance issues at least, Uganda is getting worse.
    Mr. Moore, you said in your testimony that USAID is 
expanding programs directly related to the 2011 elections in 
the Ugandan elections to support electoral process, assistance 
to parties, civil society, and obviously no civil society or no 
election is going to work very well without an independent 
media. There is now legislation pending in the Ugandan 
Parliament to require annual licensing for all newspapers and 
will allow the license to be revoked if the newspaper publishes 
anything prejudicial to national security stability or unity 
amounts to economic sabotage or is injurious to Uganda's 
relations with new neighbors or friendly countries.
    It is pretty hard to imagine that kind of threat of 
revocation of a license would square with anything we would 
regard as freedom of the press or that it would serve the 
Uganda people very well in preparing for an election to get the 
information that they need. Are both of you aware of this 
pending legislation? What are the implications for democratic 
governance in Uganda, and are there other signs of democratic 
decline in Uganda leading up to the February elections?
    Mr. Carson. Congressman Miller, I am aware of the 
legislation. I think that it is not very thoughtful 
legislation. The Ugandan media has spoken out against it. even 
the government-owned New Vision newspaper, which is the most 
widely read and most widely circulated paper in the country has 
also editorialized against this media legislation as well. I am 
sure that our embassy has also weighed in and made their views 
known to members of the government there about what they think 
of this legislation, but let me just say in general terms about 
Uganda and the issue of democratization.
    It is important that Uganda not move backwards, that it not 
stall but continue to move forward in strengthening its 
democratic institutions. Last Thursday, I had an opportunity to 
make a very quick trip to Uganda, and I had an opportunity to 
speak with the President of the country as well as with several 
senior ministers in that country, and while the nature of my 
visit had to do with broader foreign policy issues, I 
specifically raised the issue of democratization and the 
strengthening of democratic institutions with the President.
    I can say this very clearly because if you had a copy of 
the New Vision, you would see that for the 2 days that I was in 
country, on both days there were widely-reported stories of why 
I was coming to Uganda and what the response was, but I spoke 
to the President and senior ministers among other things about 
making the election commission more broadly representative of 
society in general and making it more credible.
    I also spoke to him about the registration process and the 
need to ensure that all Ugandans had an opportunity to be 
registered and to be able to participate in next year's vote. 
The discussions were wide ranging, and most instances when I am 
traveling around the continent, I will talk very clearly to 
leaders about the need to strengthen their democratic 
institutions. This is important for us, but it is even more 
important for African countries and the stability and growth of 
their democracies. As I said earlier, it is a major priority of 
the administration to continue to encourage democratic progress 
and to do so in a manner that benefits all the people and not 
just a few.
    Mr. Miller. Okay. Mr. Moore, you have spoken in your 
testimony several times of land reform, tenure reform, tenure 
security, property rights. Obviously, it leads to conflict as 
you had said. It certainly can lead to great injustice, but it 
also makes economic development almost impossible for their to 
be no tenure security. No on is going to invest in improving 
land if the land may be taken from them arbitrarily and if 
their improvements make it more likely that it will be taken 
from them arbitrarily.
    I have introduced legislation that I hope becomes part of 
the foreign assistance reauthorization to focus more on rapid 
urbanization and tenure security, but could you describe for 
us, you have mentioned it, but in more detail what we are doing 
in DRC, in Rwanda, in Burundi, to encourage a land tenure 
property right reform?
    Mr. Moore. Thank you, Congressman. It is an area that is an 
emerging area of concern for the Agency not just in the 
countries you have mentioned but pretty wide-ranging in Africa, 
including Liberia and a variety of other places. What are we 
doing? To date, we generally have had one full time land-tenure 
expert. That is moving to a land tenure team. We are as an 
Agency I think recruiting an additional four other members for 
that team. The current person spends about 60 percent of his 
time in Africa.
    We, the Africa Bureau, are bringing on a full-time land 
tenure person who will work with the existing expert, and what 
we are doing is working both with agriculture ministries and 
land ministries, where they exist, to ascertain what really are 
the tenure rules of the country, and in particular where there 
are both traditional tenure rules and modern legal rules, 
trying to resolve the differences between those so that 
countries can move forward with one system of land tenure that 
provides secure tenure for its citizens.
    In particular, one of the things we are looking at is the 
role of women in land tenure. We know that women make up 70 
percent of the agricultural force, and often they are reduced 
to agricultural labor because they don't have control of that 
land. That is one of the things in particular we are looking at 
in land tenure.
    Mr. Miller. Okay. Mr. Moore, I understand how important it 
is in agricultural areas. It is also important in urban 
settings, in the slums of the rapidly urbanizing cities of 
Africa. The absolute lack of any kind of tenure makes it almost 
impossible that housing will be anything more than a shack 
without water or sewer or electricity or anything else. Mr. 
Chairman, thank you.
    Mr. Payne. Thank you very much. Ms. Woolsey?
    Ms. Woolsey. Thank you, Mr. Chairman, for keeping this 
going long enough for me to leave and come back. I appreciate 
you. Mr. Moore, in your testimony, you said that gender and 
women's empowerment is very important, and in your written 
testimony, you noted that the lifetime risk of maternal death 
ranges from one and 13 in DRC and one in 25 in Uganda, so with 
resources that the United States and the international 
community have dedicated to reduce maternal mortality, why are 
these numbers so high?
    What about our current policies and practices or the 
region's current policies and practices need to be changed to 
improve these numbers, and what are the biggest challenges to 
making real changes for women throughout the region?
    Mr. Moore. Thank you, ma'am. I may have touched on this a 
bit while you were out. I think that one of the things quite 
honestly, as I said earlier, is that there were a variety of 
health issues that we looked at as emergencies, and as we 
looked as those as emergencies, we tended to move away from 
systematic care to deal with particular diseases or particular 
health concerns, and one of the focuses of the President's 
health initiative is that we would more comprehensively focus 
on health systems.
    That comprehensive focus on health systems allows us, I 
think, to help to engage a broader range of technical experts, 
including birthing assistants, and to allow women, particularly 
pregnant women, to have a system that responds more broadly to 
their needs. I think if you look historically at maternal and 
child health, it sort of dipped and then went up I think as we 
looked more at individual diseases in emergency settings. The 
desire is to look more comprehensively so that begins to dip 
again.
    Ms. Woolsey. Well, I don't want to take anything away from 
malaria and HIV/AIDS or any of those programs, but I would like 
maternal mortality to have that same level of support and 
interest. On another subject, both of you, it is so clear that 
it is the women and children who suffer at the hands of a bunch 
of dudes, not just in developing nations, but really all over 
the world, but the more educated area or a region or a country, 
the more civilized it usually is, and you have said that the 
youth population like in Burundi, 50 percent of the population 
is under 25.
    How are we educating these youths so that they will then 
become adults who care about each other and not just about 
competing and ending up with women and children being the brunt 
of the whole program? So education, how are we educating?
    Mr. Moore. Let me make a few remarks on that. As you are 
aware, the United States is one of the traditional leaders, 
particularly in basic education and increasingly in higher 
education. One of the things that we talk about and debate 
quite a bit is the missing aspects of vocational education, 
which should be targeted in particular at youth bulges. We have 
a number of countries that have huge youth bulges, and in those 
settings we have a number of employers who complain that they 
are not able to find people who have the particular skills that 
they need for employment.
    One of the big areas, for example, one would find is with 
hotel workers or the hospitality field where they feel that 
some targeted education might be useful in helping those youth 
to acquire the type of skills that are needed so that they can 
enter the hospitality area. We have just begun under our new 
administrator to look at some of the ways we might be able to 
respond to some of these needs and to look particularly at some 
new partners in the United States that may be useful in 
responding there.
    One of the things that comes to mind is for many of the 
areas where there has been an expressed desire by employers, 
and we might be able to have some public/private partnerships 
or training that in the United States is actually provided by 
what we would refer to as community colleges or junior 
colleges. That is one of the areas that I think increasingly as 
we look at the needs for youth bulge particularly as it relates 
to employment that we are going to have to get engaged in 
education.
    Ms. Woolsey. But what about the challenge that schools are 
`free,` but it is the cost of the monthly fee that the parents 
can't scrape up, so their kids don't go to school half the 
time? I mean, these are little kids, and they can't go into 
vocational education if they haven't had any education.
    Mr. Moore. That is an issue I am not sure I have an 
immediate answer for you on that.
    Ms. Woolsey. Well, I think it needs to be addressed. In 
something I read just this weekend, I can't even remember what 
paper, I read so many of them, about families spending more 
money on tobacco and liquor that they do for their kids to go 
to school in a month or a week, so that is something I think 
that needs to be addressed and needs to be worked on because 
these children are our future, and we know it. Thank you, Mr. 
Chairman.
    Mr. Payne. Thank you very much. We will have a very short 
second round, and we will limit the time, but I just have a 
couple of quick questions. The Government of Rwanda and DRC 
have sort of had contentions throughout the years, and I know 
that there was an agreement signed in November 2007 in Kenya 
that sort of started to create a better work relationship. How 
is the work relationship going between the two countries? Have 
they established diplomatic ties? They were going to exchange 
ambassadors perhaps at one time at the lower level. How is that 
moving along, Mr. Carson, Ambassador?
    Mr. Carson. Mr. Chairman, the relationship between the 
Democratic Republic of the Congo and Rwanda has improved 
dramatically over the last 18 months and certainly is a marked 
improvement over where it was 5, 6, 7 or 8 years ago. The 
improvement can be seen in a number of areas. One, there has in 
fact been an exchange of diplomatic relations. Both countries 
have now opened up embassies in their respective capitals, and 
they have also exchanged ambassadors.
    The two Presidents, President Kagame of Rwanda and 
President Kabila of the DRC have met on several occasions, and 
we hear that they in fact do talk to one another telephonically 
on a periodic basis, but probably the most dramatic sign of the 
improvement between the two countries occurred approximately 
15, 16 months ago when the government of President Kabila 
permitted the Rwandan Government to send troops across the 
border into the eastern Congo in order to help to flush out 
some of the rebel groups who were a part of the old 
Interahamwe.
    The Rwandan troops stayed for several months and then went 
back across the border. They have not been back again. That was 
done with the permission of the DRC Government and the 
permission of President Kabila, but relations have improved 
significantly. We hope that they will remain on an upward 
trajectory. It is absolutely essential that they work together 
at all levels and very collaboratively if the problems of that 
region are to be resolved.
    Mr. Payne. Thank you. I know that Rwanda has several 
battalions of peacekeepers in Darfur, and I just wonder how 
significant is that, and how their contribution in the peace 
keeping in Darfur is working?
    Mr. Carson. The Rwandan Government is to be complimented on 
its commitment to peace keeping efforts not only in Darfur but 
in other parts of Africa. They have a very skilled and 
professional army, and their soldiers have turned out to be 
very able peacekeepers. They have performed extremely well 
according to reports that we have seen in their engagement in 
Darfur, and a senior Rwandan officer has also served as a 
senior commander in the U.N. peace keeping mission in that 
region so that in Darfur they get a very positive and high mark 
for their peace keeping commitment and performance.
    Mr. Payne. And finally, about Rwanda, with the tens of 
thousands of people who had taken part in the genocide and many 
that are still in detention, a large number through the Gacaca 
system have been released. How is that system working, and do 
you see their release of more of the people who are 
incarcerated speeding up?
    Mr. Carson. The Gacaca system has worked extraordinarily 
well given the large number of individuals who were involved in 
the genocide in 1994 where there were clearly not just hundreds 
but thousands of individuals across the country who were 
complicitous in some of the enormous violence that went on from 
April to November of '94. The Gacaca system, of course, is a 
uniquely Rwandan system. It has been effective.
    We continue to monitor its operations, and we certainly 
encourage the Rwandan Government to exercise with care the 
rights of all of those who were in Gacaca detention situations 
and that those who in fact are rehabilitated and should be 
released should be released, but the system has run fairly 
well.
    Mr. Payne. Thank you, and just finally, Mr. Moore, with the 
social issues going on in Uganda--the anti-gay legislation, 
homosexual legislation--has the USAID attempted to work with 
government officials in trying to sort of explain or work with 
them in their governance? I mean, some of the legislation was 
pretty extreme. How have we dealt with that from a USAID 
standpoint?
    Mr. Moore. I don't think we have dealt with it directly. 
What we have tended to do as we look at Uganda in the area of 
governance is to try to find those areas on a local level where 
civil society and NGOs and local governance can come together 
or around some things that are positive in terms of moving 
those communities forward, and then based upon that 
relationship at local areas see how that can be moved up to a 
national level so that there are those same alliances that are 
working to solve problems. We probably have worked more on the 
process of solving problems than we have on looking at any 
particular thing that one may or may not decide is problematic.
    Mr. Payne. Okay. Mr. Smith?
    Mr. Smith. Thank you, Mr. Chairman. Could you tell us the 
total amount of direct and indirect U.S. funding for the Kenya 
Constitution reform processes, including money to the committee 
of experts and the civic education program that is now 
underway? And secondly, what has been the U.S. position on the 
extraordinarily controversial part of that, which would 
legalize abortion for health reasons?
    Mr. Carson. Congressman Smith, I cannot tell you, but I 
certainly will find out how much we have spent in supporting 
the reform of the Constitution in Kenya, and so that number 
probably is available, and I will make a earnest effort to get 
it.
    Mr. Smith. I would appreciate it, and could you provide us 
the information as to what role, if any, we played with regards 
to the extremely controversial piece of that? The abortion 
provision has been so named by even the chairman of the 
committee on experts, who said that it is one of the top most 
controversial aspects to it that Kenya will go from a country 
that protected its unborn children in almost every instance to 
being an abortion-on-demand country, if this were to be 
ratified.
    Mr. Carson. We will find out, but again, we have not been 
involved in the internal deliberations of any particular 
clauses or amendments to the Constitution. What we have 
encouraged the Kenyan authorities to do is to produce a 
Constitution which incorporates all of the key elements of a 
strong democratic institution.
    Mr. Smith. A little over 2 years ago, the U.N. Population 
Fund and China's population control police invited the health 
ministers and other top officials in sub-Saharan African 
countries to Beijing to talk about child limitation policies. 
When that meeting was over, at least one very high official, 
Paul Kagame of Rwanda, said that he wanted to implement a 
three-child-per-couple policy. Now, as I think you know, Mr. 
Ambassador, China's policy of one child per couple is among the 
cruelest violations of women's rights in human history.
    There are at least 100 million girls missing due to 
feticide or gendercide, I should say, where children are 
targeted because of their gender, killed by abortions simply 
because they happen to be female. It is outrageous, and yet 
this has been enabled by the UNFPA since 1979. The 
international community has been largely silent, and now we see 
countries in Africa actively looking at whether or not they 
need that kind of child limitation.
    I would point out parenthetically that Margaret Sanger in 
her books, and she actually wrote a book called Child 
Limitation, which talked about the ``cruelty of charity'' of 
helping indigent women have children. She wrote in her book, 
``The Pivot of Civilization''--she is the founder of Planned 
Parenthood--and she made it very clear, that there are certain 
ethnicities, certain people who should not procreate, and 
Africans were among those that she singled out that should not 
have children. Absolutely racist in my opinion. She was a 
eugenicist, no doubt about it. She clearly stated that anyone 
who was handicapped, disabled, in any way shouldn't be allowed 
to live.
    Having said that, Kagame's statement about a three-child-
per-couple-policy is, in my opinion, and many others I would 
suggest, very dangerous to children. It shreds the welcome mate 
for a child. Mr. Moore, you talked about population pressures. 
You talked about the growth. I would hope that wouldn't become 
a pretext for the U.S. Government supporting a child limitation 
policy whether it be three children per couple, or as we see in 
the PRC, the one child. It inevitably leads to coercion, and it 
makes children profoundly unwelcomed. Do we take a position on 
child limitation?
    Mr. Carson. Congressman Smith, I am unaware of the 
conference that you just mentioned in which the Chinese 
Government invited healthcare officials from Africa to attend. 
We will certainly look at it and see what the history of this 
is, and this is actually the first time that I have heard 
anything about President Kagame or Rwanda having a three-child-
per-family policy. I am totally unaware of that as well.
    Mr. Smith. Mr. Moore, are you? If you could check into it? 
I actually raised it with Paul Kagame myself. He acknowledged 
that it is accurate. But again he had the false sense that 
economic growth like what is going on in China. Economists now 
are beginning to recognize that not only can men not find women 
to marry because they are missing, because they have been 
killed by sex selection abortions, but the economic problems 
that China will soon begin to see are potentially catastrophic. 
I hope there will be lessons learned from China that are not 
misapplied because he came back feeling that if you want 
economic growth, you need child-limitation policies.
    Please get back to me for the record. But do we, in 
drafting legislation, in any way encourage the legalization of 
abortion with countries like Uganda, with countries like 
Rwanda? Do you know?
    Mr. Moore. I believe, sir, the answer to that is no.
    Mr. Smith. Okay. Let me ask you, in terms of the moratorium 
on ARVs, if you could elaborate on the impact that it is having 
on the unmet need of men and women who are HIV positive, 
whether or not anyone else is picking up the slack, and given 
the fact that many people will die, will you be coming to 
Congress or looking to take monies from other accounts and make 
sure that perhaps we grow that number? I talked to a lot of the 
partners in the field, and they are very concerned that huge 
numbers of people will die because ARVs were not available to 
them. You are going to get back to us on that?
    Mr. Moore. I will get back to you on that.
    Mr. Smith. I appreciate that, Mr. Moore. Finally, if I 
could ask you about the light infantry battalion military 
training that we are providing. Years ago, when we trained up 
Kopassus in Indonesia, we heard reports of human rights abuses 
committed by those who we had trained. I actually convened a 
hearing and went to Indonesia as Habibie took over from the 
Suharto regime and people that we had trained, we believe--but 
we could never prove it--in urban gorilla warfare were actually 
killing people in the streets.
    My question to you is what kind of human rights training 
are we providing? Are we keeping track of the trainees to 
ensure that there is accountability? How many trainers are 
there? Where is this actually happening? Could you provide us 
the who, what, when, where? I know the why of it, but maybe 
that as well because obviously it is a good idea. We want to 
train professional military men and women with good components 
of anti-human trafficking and human rights concerns, but if you 
could give us the whole package on that, I would deeply 
appreciate it.
    Mr. Carson. We certainly will. Just two quick sentence. We 
vet all of the individuals who participate in our military 
training programs according to the Leahy amendment, and with 
respect to the training that is going on in Kisangani right 
now, a portion of that training is devoted to human rights 
protection and respect for the civil liberties for civilians. 
it is an integral part of what our people on the ground are 
teaching to the unit that is being trained by the U.S.
    Mr. Smith. And just one final thing. Will Uganda back the 
U.S-lead effort for Iranian sanctions at the U.N. Security 
Council?
    Mr. Carson. Let me say that I sincerely hope so. That was 
the purpose of my visit to Uganda last week. I hope that the 
Ugandans will in fact support us. It is absolutely essential 
that they do.
    Mr. Payne. Let me thank both of you for this excellent 
hearing. We are getting a lot information out. We really 
appreciate it. We will be following up on a few issues, but 
once again, thank you. I would also like to commend my members, 
nine members at a subcommittee hearing is very commendable, and 
so I appreciate their interest. With that, I ask unanimous 
consent to enter testimony from John Prendergast of the Enough 
Campaign into the record. Without objection, so ordered, and 
also I ask unanimous consent that members have 5 legislative 
days to revise and extend their remarks. Without objection. So 
ordered. Thank you very much. The meeting stands adjourned.
    [Whereupon, at 12:21 p.m. the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





                                 <all>

</pre></body></html>
